<html>
<title> - MARKUP OF: H.R. 920, VENEZUELA ARMS RESTRICTION ACT; H.R. 854, HUMANITARIAN ASSISTANCE TO THE VENEZUELAN PEOPLE ACT OF 2019; H.R. 1477, RUSSIAN-VENEZUELAN THREAT MITIGATION ACT; AND H.R. 1616, EUROPEAN ENERGY SECURITY AND DIVERSIFICATION ACT OF 2019</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    Markup: H.R. 920, Venezuela Arms
                      Restriction Act; H.R. 854, 
                    Humanitarian Assistance to the 
                  Venezuelan People Act of 2019; H.R. 
  1477, Russian-Venezuelan Threat Mitigation Act, H.R. 1616, European 
            Energy Security and Diversification Act of 2019

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 14, 2019

                               __________

                           Serial No. 116-15

                               __________

        Printed for the use of the Committee on Foreign Affairs
        

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
        

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                    
                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-603 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="60100f200315131408050c104e030f0d4e">[email&#160;protected]</a>                                
                      
                   
                    
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                            
                   
                   
                
                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                  BILLS AND AMENDMENTS OFFERED EN BLOC

H.R. 920, the Venezuela Arms Restriction Act, with the Engel 
  Amendment in the Nature of a Substitute 



H.R. 854, the Humanitarian Assistance to the Venezuelan People 
  Act of 2019 with the Engel Amendment in the Nature of a 
  Substitute and with the Levin Amendment 




H.R. 1477, the Russian-Venezuelan Threat Mitigation Act with the 
  Engel Amendment in the Nature of a Substitute 



H.R. 1616, the European Energy Security and Diversification Act 
  of 2019 with the Keating Amendment in the Nature of a 
  Substitute 




                                APPENDIX

Hearing Notice...................................................    69
Hearing Minutes..................................................    70
Hearing Attendance...............................................    71

                       STATEMENTS FOR THE RECORD

Markup Summary...................................................    72
Statement for the record from Representative Sires...............    73
Statement for the record from Representative McCaul..............    74
Statement for the record from Representative Castro..............    76
Statement for the record from Representative Wilson..............    78

 
    MARKUP OF: H.R. 920, VENEZUELA ARMS RESTRICTION ACT; H.R. 854, 
  HUMANITARIAN ASSISTANCE TO THE VENEZUELAN PEOPLE ACT OF 2019; H.R. 
1477, RUSSIAN-VENEZUELAN THREAT MITIGATION ACT; AND H.R. 1616, EUROPEAN 
            ENERGY SECURITY AND DIVERSIFICATION ACT OF 2019

                        THURSDAY, MARCH 14, 2019

                          House of Representatives,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The committee met, pursuant to notice, at 9:45 a.m., in 
Room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel. So if we could get started. I do not think 
this will last very long. I know that we are going to have a 
vote on the House floor sometime this morning.
    So I would ask if we could keep our statements brief and we 
can finish and then go to the floor for a vote, and I 
understand that there will be no votes in the afternoon. So I 
think that is a good thing for the schedule.
    So let me call the committee to order and pursuant to 
notice, we meet today to markup four bipartisan measures. 
Without objection, all members may have 5 days to submit 
statements or extraneous materials on today's business.
    As members were notified yesterday, we intend to consider 
today's measures en bloc. The measures are H.R. 920, the 
Venezuela Arms Restriction Act, with the Engel Amendment in the 
nature of a substitute; H.R. 854, the Humanitarian Assistance 
to the Venezuelan People Act of 2019 with the Engel Amendment 
in the nature of a substitute and with the Levin Amendment; 
H.R. 1477, the Russian-Venezuelan Threat Mitigation Act with 
the Engel Amendment in the nature of a substitute; and H.R. 
1616, the European Energy Security and Diversification Act of 
2019 with the Keating Amendment in the nature of a substitute.
    [The Bills and Amendments offered en bloc follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. At this time, I recognize myself to speak 
on today's business and I will be brief.
    Today, our committee has an important opportunity to 
support the Venezuelan people by advancing three bills at 
holding Nicolas Maduro accountable while responding to 
Venezuela's humanitarian needs.
    First, Congresswoman Shalala's Venezuela Arms Restriction 
Act, makes it crystal clear that no U.S. citizen or business 
will be able to profit from the repression of the Venezuelan 
people.
    This legislation codifies existing restrictions on arms 
exports to Venezuela and adds new restrictions on articles that 
are used for crime control, like tear gas and riot gear.
    Congress must do everything in its power to keep these 
dangerous items out of the hands of Nicolas Maduro and his 
cronies.
    We are also considering the Humanitarian Assistance to the 
Venezuelan People Act, which is authored by Congresswoman 
Mucarsel-Powell. Venezuela was once the crown jewel of South 
America, the wealthiest country on the continent with vast 
natural resources and, sadly, that is no longer the case.
    Ninety percent of Venezuelans now live in poverty and the 
country's citizens are leaving the country at an alarming rate.
    The U.N. High Commissioner on Refugees estimates that by 
the end of this year, there will be more than 5 million 
Venezuelans living outside of the country.
    This mass exodus has had a major impact not only on 
Venezuelans themselves but also on the generous host countries 
including Colombia, Peru, Brazil, and Ecuador, which have 
opened their hearts and homes to refugees and migrants.
    Ms. Mucarsel-Powell's legislation would address the 
humanitarian crisis head on by authorizing new funding and 
mandating a strategy from USAID and the State Department.
    And Congresswoman Wasserman Schultz's Russian-Venezuelan 
Threat Mitigation Act would respond to the increasing security 
relationship between Venezuela and the Kremlin.
    This is another place where Vladimir Putin is trying to 
advance his aggressive agenda, and this bill would require an 
assessment from the Administration of what Russia is up to and 
what danger it poses.
    The other measure we are considering today is the European 
Energy Security and Diversification Act of 2019. In addition to 
its military aggression, Russia has repeatedly used energy as a 
weapon to blackmail countries dependent on Russian energy 
sources.
    The European Union and many of our allies and partners in 
Europe recognize this threat and have begun to take steps to 
reduce their vulnerability to Russian pressure.
    This bill would ramp up American support for efforts to 
increase Europe's energy security and reduce dependence on 
Russia, including financial support for projects that better 
connect European energy networks and improve energy efficiency.
    These are all good measures that I am pleased to support. I 
thank our members for their hard work and I will now recognize 
our ranking member, Mr. McCaul of Texas, for any remarks he 
might have.
    Mr. McCaul. Thank you, Mr. Chairman.
    I know everyone in this committee is deeply disturbed by 
the deteriorating situation in Venezuela and the continued 
threats by Maduro and his regime against interim President 
Guaido.
    I am proud to stand with him in his struggle for a peaceful 
transition to democracy. That is why I strongly support the 
three Venezuela bills we are marking up today.
    I think in the interest of time, with votes imminent, I 
will place my full remarks on these three bills that I support 
into the record, without objection.
    And we will also markup the European Energy Security and 
Diversification Act sponsored by Mr. Kinzinger and Mr. Keating. 
This bill will provide political, diplomatic, technical, 
financial support to energy projects in European and Eurasian 
countries to reduce their reliance on Russia.
    It will also reauthorize the Countering Russian Influence 
Fund to protect critical infrastructure and electoral 
mechanisms from Russian cyber attacks, combat corruption, and 
support countries under direct assault by Russia like Georgia 
and Ukraine.
    It is a strong statment of our willingness to do more to 
help Europe achieve its energy diversification and security 
goals, and I am fully supportive.
    I look forward to working with my colleagues on both sides 
to pass these bills through the House and to the president's 
desk.
    And with that, I yield back.
    Chairman Engel. Mr. McCaul yields back. Thank you, Mr. 
McCaul.
    Does anyone else seek recognition?
    Mr. Sires.
    Mr. Sires. Yes. I just want to thank Congresswoman 
Wasserman Schultz, Congresswoman Shalala, and Congresswoman 
Mucarsel--Powell for introducing three important bills in 
support of the Venezuelan people and I would like to put the 
rest of my comments in for the record, if you do not have any 
objection.
    Chairman Engel. Thank you, Mr. Sires.
    Anyone else seeking recognition?
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Just quickly, I want to just talk about the bill that Mr. 
Keating and I introduced, the European Energy Security and 
Diversity Act. It is important for both our European and 
Eurasian partners and our industry.
    We know that Russia has long used energy as a weapon to 
coerce, manipulate, and create conflict in Europe and Eurasia 
and I do not believe any member in this room would deny the 
fact that the Russian Federation, led by Vladimir Putin, is a 
destabilizing factor in the world.
    This would help our partners defend themselves from the 
malign activities of Russia by developing and diversifying 
their own energy sources. Europe and Eurasia, for far too long, 
have relied on Russian gas and oil without looking at options 
to produce their own.
    By providing diplomatic and political support, American 
energy innovators could help diversify energy sources, enhance 
market integration across the region, and increase competition 
within the European energy market.
    Our partners have a long history of working with our 
defense industrial base, but this legislation now offers them 
an avenue to work with our great energy sector.
    Through this bill, we have an opportunity to support our 
allies, support our energy industry, and end Russia's use of 
energy as a weapon.
    I urge my colleagues to join me in support, and I yield 
back.
    Chairman Engel. Thank you.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman, I thank the ranking 
member, and I thank the ranking member of our subcommittee.
    This is truly a bicameral and bipartisan effort that began 
in the last Congress and I want to thank the chairman and the 
ranking member and, hopefully, ask the committee members to 
move this forward now at such an early stage.
    I want to thank Senator Murphy for his leadership on the 
Senate side. I want to thank Congressman Kinzinger for working 
with us here so early in the session on a very important 
effort.
    It is a great example in our subcommittee of an issue and a 
piece of legislation that hits, really, on all aspects of what 
our committee is trying to do this Congress.
    At a time when Putin is aggressively asserting Russian 
influence around the world, this bill is an important way to 
push back from a position of strength. The U.S. is now an 
exporter of energy.
    Through election interference, disinformation, or the issue 
at hand--energy--Russia consistently tries to undermine the 
sovereignty of our friends and allies, particularly those on 
the other side of the Atlantic.
    Ukraine is a good example of all these issues. Russia has 
repeatedly used its natural gas pipelines that transit Ukraine 
and Europe to exert pressure on Ukraine, even, at times, during 
the cold winter months.
    Nord Stream 2 has gained a lot of attention recently 
because of increased natural gas flows from Russia into Europe 
and how that could potentially leave Europe more isolated and, 
specifically, countries like Ukraine affected by this, making 
them even more vulnerable to Russian manipulation.
    We need to push back on these Russian efforts to undermine, 
to exert leverage, and, I would even agree, weaponize energy in 
their efforts.
    This is a proactive way to do this together with our 
European allies from a position of strength. This bill 
authorizes financing for private sector investments in energy 
security projects so that the U.S. can support the development 
of alternative sources of energy in Europe, including renewable 
energy.
    This bill promotes energy diversification and security in 
Europe by increasing their energy independence from Russian 
sources but also it strengthens U.S.-European cooperation and 
economic ties. This is one effort of what I hope will be more 
efforts to do this.
    We need to be working more closely with our European 
friends and allies if we are going to be successful in 
minimizing Putin's destabilizing efforts here in the U.S. and 
throughout the world.
    Russia and China are both making investments in Europe, 
whether it is in energy or port infrastructure or technology 
companies, and it is time that the U.S. steps up and makes 
these strategic investments not only with our European partners 
who share our values and close business ties with American 
companies but also with other countries around the world.
    This is not only good for our economy but it is good for 
our security. It is also good for our allies and global 
security as well.
    So I would like to thank the chairman for holding this 
hearing and this markup, and advancing this piece of 
legislation along with those very other important pieces of 
legislation dealing with the horrific humanitarian crisis 
unfolding in Venezuela.
    I urge my colleagues to support these measures and I yield 
back.
    Chairman Engel. The gentleman yields back.
    Any other members seeking recognition?
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    I will be very brief. I just want to thank my colleagues 
and voice my support for the three Venezuela measures here 
which, in essence, increases humanitarian assistance, the arms 
restrictions, as well as discouraging Russian influence in the 
area.
    Venezuela continues to be an absolute total and utter 
mess--phony elections, a president who is not legitimate, 3 
million or so Venezuelans who have already fled the country 
with a couple of million probably ready to do the same thing; 
manmade extreme food and medical shortages, once-eradicated 
diseases reemerging from malaria to measles to diphtheria.
    It is absolutely a disgrace, and I applaud this committee 
and I applaud the Trump Administration in their strong stance 
in recognizing Guaido rather than Maduro, who is a complete 
fraud and ought to be removed from office as quickly as 
possible.
    So I want to thank the committee for working in a 
bipartisan manner, and yield back.
    Chairman Engel. The gentleman yields back. Thank you, Mr. 
Chabot.
    Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman, and I want to express 
my appreciation for our bipartisan work on this incredibly 
important set of issues.
    And I want to thank you, Mr. Chairman, for accepting my 
amendment to H.R. 854 to ensure that humanitarian aid for the 
people of Venezuela is delivered in accordance with established 
international humanitarian principles.
    Everyone in this room understands the magnitude of the 
humanitarian crisis the Venezuela people are grappling with 
under Maduro. Venezuelans cannot afford food.
    Hospitals do not have basic drugs or supplies. Rates of 
maternal and child deaths and diseases that had been under 
control like malaria are spiking.
    And today marks a week since much of Venezuela, including 
Caracas, was plunged into a blackout. Without power, it has 
only gotten harder for the country's decimated health system to 
care for those in need.
    It is clear that we need to do all we can to address this 
crisis. But we have to do it right. This is a simple amendment 
to make sure that humanitarian assistance that is so needed in 
Venezuela is delivered in accordance with widely accepted 
principles.
    We need to be absolutely clear that any aid is there to 
ease the Venezuelan people's suffering, not to make them pawns 
in political ploys.
    Again, Mr. Chairman, I am grateful to you and your staff 
for working with me on this.
    Finally, H.R. 1477 would assess and mitigate threats posed 
by Russian-Venezuelan security cooperation. My reading of this 
bill is that it is not in any way an expression of 
congressional support for the use of military force and it 
would not provide any statutory authorization for an 
introduction of U.S. forces into hostilities.
    I would like to yield to the chairman to ask whether this 
is his understanding as well.
    Chairman Engel. Yes, it is my understanding. The gentleman 
is correct. H.R. 1477 is not an expression of support for the 
use of force as it in no way provides statutory authorization 
under the War Powers Resolution or any other provision of law.
    As Section 8(a) of the War Powers Resolution specifies, and 
I quote, ``Authority to introduce United States armed forces 
into hostilities or into situations where an involvement in 
hostilities is clearly indicated by the circumstances shall not 
be inferred from any provision of law unless such provisions 
specifically authorizes the introduction of United States armed 
forces.''
    This legislation cannot properly be construed as providing 
any such authorization and I am not aware of any claims to the 
contrary.
    Mr. Levin. Thank you, Mr. Chairman. I appreciate your 
support and your understanding of this bill, and with that 
clarification, I support the bill, and I yield back.
    Chairman Engel. The gentleman yields back.
    Are there any other requests for recognition?
    Then without objection, the committee will proceed to 
consider the noticed items en bloc. A reporting quorum is 
present.
    Without objection, the question occurs on the measures en 
bloc as amended.
    All those in favor, say aye.
    [Chorus of ayes.]
    Chairman Engel. All those opposed, no.
    In the opinion of the chair, the ayes have it.
    The measures considered en bloc are agreed to and without 
objection each measure in the en bloc is ordered favorably 
reported as amended and each amendment to each bill shall be 
reported as a single amendment in the nature of a substitute.
    Without objection, staff is authorized to make any 
technical and conforming changes and the chair is authorized to 
seek House consideration under suspension of the rules.
    This concludes our business today. I want to thank Ranking 
Member McCaul and all of the committee members for their 
contributions and assistance with today's markup.
    There is a bill now on the House floor being voted on. I 
think that is the only bill.
    The committee stands adjourned.
    [Whereupon, at 10:05 a.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                       STATEMENTS FOR THE RECORD
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
